U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL INSTITUTE OF
     STANDARDS AND TECHNOLOGY

           Reporting of Performance Measures
                           Needs Improvement




           Final Audit Report No. FSD-14430/March 2002




                              PUBLIC
                              RELEASE



      Office of Audits. Financial Statements Audits Division

In responding to the draft report, NIST officials generally agreed with the recommendations
contained in the draft report and stated that certain corrective actions have already been taken. In
addition, NIST’s response included additional information and clarifications related to the body
of our report. In this report, we summarize NIST’s comments, as well as provide the OIG
response. The complete NIST response has been included as Appendix II.

Please provide your action plan addressing the recommendations for our concurrence within 60
days of this memorandum in accordance with Department Administrative Order (DAO) 213-5.
The plan should be in the format of Exhibit 7 of the DAO. Should you have any questions
regarding preparation of the action plans, please contact me at (202) 482-4661, or Thomas
McCaughey, Director, Financial Statements Audits Division, at (202) 482-6044, within 10 days
of the date of this report. We appreciate the cooperation and courtesies extended to us by NIST
staff during the review.
                                                 TABLE OF CONTENTS


                                                                                                                                 Page


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 



          I.        Performance Results for the 

                    Manufacturing Extension Partnership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 


                    A.	        Efforts needed to ensure that MEP performance measurement

                               indicators are consistent with MEP performance goals . . . . . . . . . . . . . . . 6 


                    B.         Management should strengthen procedures for confirming

                               reliability of claimed results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                    C.	        Action needed to address issues of data completeness and disclosures . . 8


                    D. 	       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                    E.	        NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                    F.         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


          II        Performance Results for NIST Laboratories . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                    A.	        Clarification of terminology used in reporting performance

                               information is needed . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                    B.         Management should ensure controls are in place to guarantee 

                               collection of all relevant data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    C.         Efforts are needed to strengthen documentation

                               supporting claimed performance results . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    D. 	       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                     E.	        NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                     F. 	       OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


          III.	      Performance Results for the Advanced Technology Programs . . . . . . . . . . . . . . 15 


                     A.	        Management needs to ensure that internal controls

                                are strengthened and documented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                     B.         Action is necessary to strengthen review

                                procedures for reported results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                     C.         NIST needs to strengthen the 

                                reporting of performance results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                     D. 	       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                     E.	        NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                     F.         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


APPENDIX I . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


APPENDIX II . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

U.S. Department of Commerce                                                  Final Report No. FSD-14430
Office of Inspector General                                                            March 2002
______________________________________________________________________________
                           EXECUTIVE SUMMARY

The mission of the National Institute of Standards and Technology is to strengthen the U.S.
economy and to improve the quality of life by working with industry to develop and apply
technology, measurements, and standards. NIST’s operations include (1) the Manufacturing
Extension Partnership (MEP), which helps firms adopt new manufacturing and management
technologies; (2) its measurement and standard laboratories, which develop and disseminate
measurement techniques, reference data, test methods, and standards required by U.S. industry;
and (3) the Advanced Technology Program (ATP), which stimulates the development of high-
risk, broad-impact technologies. 1

NIST’s performance plans and results and its financial information are incorporated in
Department of Commerce reports, including the Annual Performance Plans and Annual Program
Performance Reports submitted to meet the requirements of the Government Performance and
Results Act of 1993 (GPRA) as well as the Department’s annual Accountability Report. The
Department’s performance goals include the following NIST-related goals:

•	     Provide technical leadership for the nation’s measurement and standards infrastructure
       and ensure the availability of essential reference data and measurement capabilities.

•	     Accelerate technological innovation and development of the new technologies that will
       underpin economic growth.

•	     Improve the technological capability, productivity, and competitiveness of small
       manufacturers.

NIST has implemented a comprehensive performance measurement approach, using a range of
indicators to assess its progress in meeting its goals, such as output and outcome measures, peer
reviews, and impact studies. It has reported on 15 performance measures, including (1) the
number of technical publications produced, (2) cumulative number of technologies under
commercialization,


       1
           NIST manages the Baldrige National Quality Program to help U.S. businesses
           and other organizations improve the performance and quality of their operations by providing
           clear standards and benchmarks of quality. Also, NIST was responsible for the Critical Infrastructure
           Protection Grants Program to fund research to provide solutions to information security problems that
           are central to critical infrastructure; however, the performance goal and performance measure
           associated with this program have been discontinued. Performance measures for both of these
           programs were not included in the Department’s Accountability Report and were not assessed during
           this review.


                                                         i
U.S. Department of Commerce                                                 Final Report No. FSD-14430
Office of Inspector General                                                           March 2002
______________________________________________________________________________
(3) cumulative number of patents filed, and (4) increased sales attributed to MEP assistance.2
We limited our review of performance results to these four measures because they were reported
on in both the Department of Commerce’s combined FY 2000 Annual Program Performance
Report and FY 2002 Annual Program Performance Plan and its FY 2000 Accountability Report.

Our audit objectives were to (1) assess NIST’s collection and reporting of performance
information in documents submitted to meet GPRA requirements and (2) determine whether
internal controls are sufficient to ensure performance data are accurate, consistent, and reliable.
In satisfying these objectives, we met with NIST officials to discuss the bureau’s procedures for
collecting and reporting performance information and assessed internal controls to determine
whether they provided assurances that reported performance results were accurate, consistent,
and reliable. We found:

•	     For the Manufacturing Extension Partnership program, there is an inconsistency between
       data collected for the performance measure reviewed and the performance goal it
       supports, reporting procedures need to be strengthened to ensure that the data is accurate,
       and the discussion of performance results needs additional explanations. To avoid a
       misleading presentation of performance results, management attention is needed. (See
       page 5.)

•	     For NIST laboratories, the number of technical publications produced was slightly
       misstated because certain results were improperly excluded. To ensure a more
       appropriate presentation of performance, additional explanations are needed in the
       discussion of this measure. (See page 12.)

•	     For the Advanced Technology Program, the cumulative number of patents filed was
       slightly misstated. To ensure a more effective presentation of performance for both the
       cumulative number of patents filed and cumulative number of technologies under
       commercialization, additional explanations need to be included in the discussion of these
       measures. (See page 15.)

We recommend that the NIST Director ensure that the following actions are taken:

•	     For MEP, strengthen the process for verifying results and clarify the discussion of
       performance results.




       2
           NIST reported on 16 performance measures in the Department’s combined FY 2000
           Annual Program Performance Report and FY 2002 Annual Performance Plan. Only
           four of these measures were also included in the Department’s FY 2000 Accountability Report.

                                                       ii
U.S. Department of Commerce                                       Final Report No. FSD-14430
Office of Inspector General                                                 March 2002
______________________________________________________________________________
•	    For NIST laboratories, strengthen internal controls to better ensure collection of accurate
      performance data and provide background information to clarify the discussion of the
      performance measure.

•	     For ATP, strengthen internal controls to ensure the reporting of accurate performance
       data and provide background information to clarify the discussion of performance results
       for the ATP performance measures.

In his March 25, 2002 response to our draft report, the Director of NIST stated that the bureau
generally agrees with the recommendations contained in the draft report and that certain steps
have already been taken to correct some of the findings and recommendations. These steps
include
(1) revisions and additions to the text of performance reports, (2) implementation of process
changes to improve data accuracy and reporting, and (3) exploration of ways to improve
performance measurement and reporting systems. In the response, NIST takes issue with certain
text within the draft report and provides some general observations about the appropriate level of
scrutiny for reported performance results and on the timing of the audit report.

We commend NIST for the corrective actions already taken and are encouraged by the assurance
of the Director of NIST that these issues will receive the highest level of attention. We feel that
it is the responsibility of management to implement the internal controls to ensure the accuracy
of reported information. As such, NIST should focus on correcting the deficiencies in internal
controls that led to the reporting of inaccurate performance information. Also, NIST’s response
indicated that the timing of our report precluded additional corrective action during the last
performance reporting cycle. However, we feel it is important to note that we provided our
findings and preliminary recommendations to NIST personnel within the Office of Strategic
Planning and Economic Analysis as early as September for the laboratories and ATP and as early
as December for MEP.

The final report reflects NIST comments and observations contained within the NIST response.
The complete response is attached to the report as Appendix II.




                                                iii
U.S. Department of Commerce                                         Final Report No. FSD-14430
Office of Inspector General                                                  March 2002

                                        INTRODUCTION

This final report presents the results of our audit of NIST’s procedures for collecting and
reporting selected performance measurement data. Programs discussed include the
Manufacturing Extension Partnership (MEP), NIST laboratories, and the Advanced Technology
Program (ATP). NIST and the Department of Commerce report on the results of these programs
and activities to meet the requirements of the Government Performance and Results Act of 1993
(GPRA) and the Chief Financial Officers Act of 1990 (CFO Act), as amended by the
Government Management Reform Act of 1994 (GMRA).

GPRA was enacted to improve the effectiveness, efficiency, and accountability of federal
programs by requiring federal agencies to set goals for program performance and to report on
annual performance measured against stated goals. The Department’s most recent efforts to
comply with GPRA were combined in the Department’s FY 2000 Annual Program Performance
Report and FY 2002 Annual Performance Plan (APPR/APP). Performance results for NIST
programs were also presented in the FY 2000 Accountability Report for the Department.

NIST is a bureau within the U.S. Department of Commerce’s Technology Administration. Its
mission is to develop and promote measurements, standards, and technology to enhance
productivity, facilitate trade, and improve the quality of life. In reporting on its programs in the
Department’s combined APPR/APP, NIST presented 15 performance measures. (For an
overview of these performance measures see Appendix 1.) Four of these measures (technical
publications produced, cumulative number of technologies commercialized, cumulative number
of patents filed, and increased sales attributed to MEP assistance) were included in the
Department’s FY 2000 Accountability Report.

The purpose of MEP is to improve the competitiveness of the nation’s smaller manufacturers by
offering them access to the latest business practices and the technical information and expertise
they need to improve their operations. Assistance is provided through a nationwide network of
more than 400 locally managed technology extension centers and field offices serving all 50
states, the District of Columbia, and Puerto Rico. The performance goal within the Department’s
combined APPR/APP that pertains to this program is to “[i]mprove the technological capability,
productivity, and competitiveness of small manufacturers.”
U.S. Department of Commerce                                                 Final Report No. FSD-14430
Office of Inspector General                                                          March 2002




                               Technology Extension Centers and Field Offices3

NIST’s Laboratories, located in Gaithersburg, Maryland, and Boulder, Colorado, develop and
disseminate measurement techniques, reference data, test methods, and standards required by
U.S. industry. NIST researchers collaborate with private industry, academic institutions, and
other government agencies. The performance goal within the Department’s combined
APPR/APP that pertains to this program is to “[p]rovide technical leadership for the nation’s
measurement and standards infrastructure and ensure the availability of essential reference data
and measurement capabilities.”

The ATP supports awards to accelerate commercialization of high-risk, broadly enabling
technologies that promise significant economic benefits to the nation. The performance goal
within the Department’s combined APPR/APP that pertains to this program is to “[a]ccelerate
technological innovation and development of the new technologies that will underpin future
economic growth.”


       3
           This map identifying the locations of Manufacturing Extension Partnership locations was
             obtained from http://www.mep.nist.gov/locations1/index.html.

                                                        2
U.S. Department of Commerce                                               Final Report No. FSD-14430
Office of Inspector General                                                        March 2002



To assess its efforts to achieve these goals, NIST uses a variety of measures. External peer
reviews measure quality and technical merit, economic impact studies measure outcomes, the
cumulative number of patents filed and cumulative number of technologies under
commercialization measure intermediate outcomes, and key products and services measure
outputs. NIST’s intention is to use a comprehensive suite of measurement techniques to
articulate its performance and accomplishments.

For information to effectively fulfill GPRA requirements and improve program results, the
reported performance data must be reliable. GPRA requires that data verification and validation
assure users, such as Congress and the Office of Management and Budget (OMB), of the
reliability of the reported performance information.4 The General Accounting Office (GAO)
defines verification as the “assessment of data completeness, accuracy, and consistency, and the
related quality control practices” and validation as the “assessment of whether the data is
appropriate for the performance measure.”

                         OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to (1) assess the collection and reporting of NIST performance
information in documents submitted to meet GPRA reporting requirements and (2) determine
whether NIST’s internal controls are sufficient to ensure that performance data are accurate,
consistent, and reliable. Determining whether NIST performance measures are the most
appropriate for the bureau was not an audit objective.

Our methodology focused on performance measures included in the Department’s efforts to
satisfy GPRA and GMRA requirements and the bureau’s efforts to ensure data quality and
reliability. We conducted our review from July to December 2001. Procedures performed
included interviewing NIST officials responsible for generating, maintaining, and reporting the
performance data; identifying and testing internal controls surrounding the performance
measures; assessing NIST’s commitment to data reliability; and performing procedures to
validate and verify performance data. We did not test the
reliability of computer generated data. Our field work was conducted at the NIST headquarters
in Gaithersburg, Maryland.



       4
           Performance Plans: Selected Approaches for Verification and Validation of Agency
           Performance Information, U.S. General Accounting Office, GAO/GGD-99-139,
           July 30, 1999.



                                                       3
U.S. Department of Commerce                                          Final Report No. FSD-14430
Office of Inspector General                                                   March 2002

We tested the internal controls established to ensure the reliability of reported results for the four
performance measures reported on both the combined APPR/APP and the FY 2000
Accountability Report.

We tailored our audit procedures to the particular performance measure reviewed. For “number
of technical publications produced,” we judgmentally selected 50 of 2,115 publications reported
for FY 2000. For “cumulative number of technologies commercialized,” we randomly selected
10 of 122 technologies reported for FY 1999. For “cumulative number of patents filed,” we
randomly selected 15 of 522 patents reported in FY 1999. We also performed cut-off tests to
ensure data were reported in the correct period. For “increased sales attributed to MEP
assistance,” we judgmentally selected 45 responses from surveys conducted for FY 1999 and the
first two quarters of FY 2000.

Our audit was conducted in accordance with the Government Auditing Standards, issued by the
Comptroller General of the United States, and was performed under the authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated May 22,
1980, as amended.




                                                  4

U.S. Department of Commerce                                                 Final Report No. FSD-14430
Office of Inspector General                                                          March 2002

                              FINDINGS AND RECOMMENDATIONS

I.     Performance Results for the Manufacturing Extension Partnership

Although we commend NIST for its efforts to measure outcomes, not merely outputs, for the
Manufacturing and Extension Partnership (MEP), improvements and clarifications are needed in
the reporting of performance results.

To support the assessment of MEP’s performance goal to “improve the technological capability,
productivity, and competitiveness of small manufacturers” in the Department’s FY 2000
APPR/APP, NIST reports on three performance measures: “increased sales attributed to MEP
assistance,” “capital investment attributed to MEP assistance,” and “cost savings attributed to
MEP assistance.” To collect the data for these three measures, NIST used a survey conducted by
a third party.5 Assisted entities were asked a series of questions about the impact MEP assistance
had on their operations. Survey questions relate to issues such as increased sales, new jobs,
retained jobs, and cost savings.

We limited our review to the performance measure “increased sales attributed to MEP
assistance,” one of the four NIST measures reported in the Department’s FY 2000 Accountability
Report.6 For FY 1999, the last year in which results were reported, estimated increased sales
attributed to MEP assistance were $447 million. We reviewed the NIST spreadsheet containing
responses for firms surveyed for FY 1999 and the first two quarters of FY 2000 and selected a
judgmental sample of 45 responses. The 45 responses represent $317, 916,737 of $874,410,733,
or 36.4%, of total increased sales within the spreadsheet. Our review identified:

•      inconsistency between the performance goal and performance measurement data,

•      insufficient procedures in place to follow up on claimed results, and

•      incomplete data and disclosures about the data.


       5
           The survey is conducted four times per year, with an attempt made to contact each client
           once per year. The survey can be completed through a phone interview or via an Interactive
           Voice Response system. Clients are selected for the survey based on when the company completed its
           first project with an MEP center in the previous year.

       6
           The Department’s FY 2000 Accountability Report contains certain goals and performance
           measures that are considered critical to the Department. The report does not include all
           goals and measures included in the APPR/APP.

                                                        5
U.S. Department of Commerce                                       Final Report No. FSD-14430
Office of Inspector General                                                March 2002

Because of the problems identified, the reported dollar value of sales increases claimed could not
be verified. Furthermore, these problems with this measure are likely to adversely impact the
other two measures reported for MEP because the data supporting these measures were collected
using the same survey. NIST needs to ensure that performance information reported for MEP is
verifiable and that the explanation of performance results is not misleading.

A.	    Efforts needed to ensure that MEP performance measurement indicators
       are consistent with MEP performance goals

The MEP performance goal is “improve the technological capability, productivity, and
competitiveness of small manufacturers,” but the performance measurement data includes
information about establishments other than small manufacturers. Using a broad performance
measure (i.e., results for all clients assisted) to support the specific goal of assisting small
manufacturers leads to a misleading presentation and discussion of performance results because
the performance data collected contains information about the effect of MEP assistance on both
small and large manufacturers, as well as nonmanufacturers. Thus, that information is
inappropriate for determining the progress NIST is making in assisting small manufacturers.

This problem is due in part to the way NIST identifies a small manufacturer. NIST officials
explained to us that they consider manufacturing facilities with 500 or fewer employees to be
small manufacturers and that the “number of employees” is based on how many are located at a
specific site, not the total number working for a firm. We found that this determination of size is
inconsistent with the generally accepted definitions used by the Small Business Administration
(SBA) and the National Association of Manufacturers (NAM), which establish the size of a firm
by the number of employees company wide and generally limit the term “small firm” to
companies with 500 or fewer total employees.

Although survey responses for FY 1999 and the first half of FY 2000 were predominately from
companies with 500 or fewer total employees at the site assisted, we identified responses from
many clients sampled that did not fit the profile of small manufacturer as defined by SBA and
NAM. Our judgmental sample of 45 responses contained at least two Fortune 500 clients with
$8 million in claimed increased sales, and four additional clients exceeded MEP’s own definition
of “small firm.” In fact, 256 of the 5,429 total responses, or approximately 5% of the clients
responding to the MEP survey, claimed more than 500 employees at the facility assisted.
Although not included in our judgmental sample, we noted that numerous additional Fortune 500
companies had received MEP assistance. By using a definition of small manufacturer which
departs from the generally accepted definition, NIST diminishes the reliability of the data
submitted in support of its performance goal.



                                                 6

U.S. Department of Commerce                                          Final Report No. FSD-14430
Office of Inspector General                                                   March 2002

We also identified several clients -- such as community colleges, government agencies, and other
non-manufacturers -- that did not appear to meet the generally understood definition of small
manufacturer. Again, including data submitted by such entities under a performance measure
which is expected to relate to small manufacturers diminishes the reliability of that data as a
mechanism for tracking progress toward the goal of assisting small manufacturers.

B.	    Management should strengthen procedures for
       confirming reliability of claimed results

The actual dollar amounts claimed for “increased sales attributed to MEP assistance” cannot be
verified. The annual survey provides MEP with information about the impact of its assistance
using several major business indicators, including sales. During our review, we detected several
errors in the collected data and believe these errors would have been detected and corrected, had
the responses of assisted clients been more thoroughly assessed for accuracy of reported
amounts.

For our sample, we selected 45 client responses from FY 1999 reported results and FY 2000
collected data. We followed up with MEP centers on 11 of the 45 responses to assess the
reliability of claimed results and the effectiveness of following up on questionable responses.
These 11 were selected because our initial review of these responses raised concern about the
reasonableness of claimed results. We found that 4 of the responses had incorrect data that
should have been identified and corrected: $10 million in increased sales claimed by one client
was “projected sales;” another claim of $10 million should have been $1 million; one claim of
$25 million should have been$2.5 million, and a claim of $25 more likely should have been
$25,000. Of these incorrect amounts, $22.5 million was incorrectly reported for FY 1999; the
remainder needs to be corrected before FY 2000 results are reported.

As part of our review, we examined the largest claimed result by a MEP client for FY 2000,
which was $39 million in increased sales. MEP staff examined this particular sales impact
when the independent surveying firm provided it and at that time the Center confirmed the
impact. However, during our review, we obtained independent data indicating that the claimed
results were too high (i.e., we found that the claimed increase in sales attributable to MEP
assistance was potentially equal to total sales for the client). The Center that served this client
stated that the claimed impact still seemed reasonable. When we asked what steps were taken
to confirm the client’s stated impact, we were told that this assessment of reasonableness was
based on its relationship with the client and conversations with client management. When the
Center could not provide any additional support to corroborate the reported results, we
requested that the client be contacted again to confirm the reported results, but NIST declined
to do so, citing its concern about the confidentiality of the data and its indirect relationship with

                                                 7

U.S. Department of Commerce                                       Final Report No. FSD-14430
Office of Inspector General                                                March 2002

the client. We believe that given the presence of information that contradicted claimed results
and the high dollar value of the item involved, NIST should either have performed additional
follow up to verify the claimed results or removed the results from the total reported.

For several of the client responses, we found that headquarters had requested the Centers to
follow up on reported results and the Centers had reported back that there were no problems
with the data. However, as a result of limited follow-up that we performed based on our
concerns, we identified inaccurate amounts that had not been caught and corrected. We also
found that the Centers have not been provided with sufficient guidance as to the procedures to
be performed in testing the reasonableness of the data.

In the Department’s combined APPR/APP and the FY 2000 Accountability Report, the
verification procedure for determining “increased sales attributed to MEP assistance” includes
a “review by NIST Director’s Office.” We asked NIST to provide more specific information
about this process. We were told that the procedure is for headquarters to request MEP Centers
to confirm increased sales of more than $5 million attributed to MEP assistance. In addition,
we were told that in certain instances, Centers were also asked to look into situations involving
potential inconsistencies in data (e.g., increased sales but no increase in employment). We
were told that in some instances, these procedures had resulted in corrections to the data.
However, these communications between headquarters and MEP representatives, which first
took place in January 2000, are usually performed through e-mail, and the procedures are not
formally documented.

The data errors identified in our review demonstrate that current procedures are not adequate in
preventing or detecting significant errors in reported results. As such, we believe the
procedures to ensure the accuracy of data need to be strengthened and documented and the
Centers should be given specific guidance on how to follow-up on reported results.

C.     Action needed to address issues of data completeness and disclosures

The response rate for the MEP survey was 62.9% for 1999, the last year reported. Of those
responses, 6.4% of clients responding to the survey indicated they had increased sales as a
result of MEP assistance, but did not quantify a dollar amount. However, in departmental
documents where MEP performance results are reported, there is no disclosure as to the
response rate or the percentage of firms that claimed increased sales but did not quantify
results. Thus, the reported dollar amounts attributed to MEP assistance need to be properly
annotated.




                                               8

U.S. Department of Commerce                                      Final Report No. FSD-14430
Office of Inspector General                                               March 2002

The response rate and the percentage of firms that report increased sales without quantifying
results should be disclosed. By the same token, providing only the dollar amounts claimed and
not the number of clients claiming increased sales does not completely articulate program
results. Inclusion of additional information could support NIST’s claim that the dollar value
reported is conservative. A supplemental performance measure to report would be the
“percentage of clients attributing increased sales to MEP assistance.”

Also, the reported results for “increased sales attributed to MEP assistance” would be more
appropriately entitled “estimated increased sales attributed to MEP assistance.” When we
explained to NIST officials the inaccuracies we had identified in the data submitted on
increased sales, we were told that the numbers were not intended to be precise because they
were estimates that provided an “indicator of success” not a precise “measure.” This, however,
is not made clear in NIST’s discussion of results in the APPR/APP and the FY 2000
Accountability Report. The APPR/APP states that “In FY 2000, MEP significantly improved
the process by which it evaluates clients’ performance by updating its survey instrument and
collection methods. Improvements to the survey design and implementation process have
made it more likely that a larger number of surveyed clients will be able to provide high-
quality, quantifiable results to interview questions” (emphasis added).

NIST should indicate how much confidence readers should place in the reported results.
Complete disclosures would enhance the usefulness of reported performance results, and better
inform the reader about the extent of confidence that should be placed in the dollar amounts
claimed.


                                        ************

We attribute the issues described above to shortcomings in the bureau’s current internal
controls. OMB Circular A-123 (Revised), Management Accountability and Control, defines
managerial controls as organization policies and procedures used by agencies to reasonably
ensure that reliable and timely information is obtained, maintained, reported, and used for
decision making. GAO standards for internal control states that control activities need to
ensure that all transactions are completely and accurately reported.

Currently, the dollar value of claimed performance results cannot be fully verified and NIST
needs to fully disclose how much reliance can be ascribed to the reported supporting data.




                                               9

U.S. Department of Commerce                                       Final Report No. FSD-14430
Office of Inspector General                                                March 2002



D.	    Recommendations

We recommend that the NIST Director:

       (1)	    Ensure that NIST’s reporting of performance results for the Manufacturing
               Extension Partnership is revised to provide a better match between the stated
               goal and the reported performance measurement data,

       (2) 	   Strengthen and document internal controls to ensure that reported data is

               credible, and


       (3)	    Clarify the discussion of performance results for the program to fully disclose
               the completeness and accuracy of the data reliability issues.

E.	    NIST Response

In his response, the Director of NIST stated that the bureau generally agrees with the
recommendations contained in the draft report and that certain corrective actions have already
been taken. The response indicates NIST disagreement with the report’s characterization of the
relationship between goal and related performance measures, expressed concern over the use
and interpretation of a specific client example within the report, and suggested supplementary
information about the MEP surveying system. NIST states that its measures are appropriate
because 95% of clients surveyed were small establishments with fewer than 500 employees and
that these clients accounted for 93% of attributed sales impacts. NIST also took issue with the
report’s reference to independent data that claimed results were too high, raising questions
about the age and accuracy of the publicly available information cited. In addition, NIST
officials disagreed with the comment that they had declined to contact the client again to
confirm the reported results.

Nevertheless, NIST agrees that enhanced data verification procedures could improve the
accuracy of reported data. NIST also wanted the discussion of the MEP survey clarified within
the report.

F.	    OIG Comments

While we commend NIST for the corrective actions that have already been taken, continued
management attention is necessary to address the issues identified within this finding. Also, after
carefully considering NIST’s comments and reassessing our original conclusions, we must reaffirm our
recommendations. Specifically, to avoid the appearance of providing misleading performance results,
NIST should consider eliminating claimed results for firms that are not small manufactures, clearly

                                                  10

U.S. Department of Commerce                                        Final Report No. FSD-14430
Office of Inspector General                                                 March 2002

articulate which percentage of claimed results do not come from small manufacturers, or modify the
goal to recognize that NIST efforts are not exclusively linked to small manufacturers.

With respect to NIST’s concern with the example cited within the report, we continue to feel that NIST
had not adequately substantiated the claimed impact of $39 million in increased sales for one of MEP’s
clients. We requested that the client be contacted again to confirm the amount of increased sales.
Instead, NIST referred us to the state and regional MEP centers. Unfortunately, their representatives
had not seen any financial information to support the increased sales and could not provide us with
sufficient assurance that the increased sales were reasonable. Our identification of other instances in
which reportedly “confirmed results” turned out to be inaccurate, as well as potentially conflicting
publicly-available data for this client, provides support for reexamining the client’s claim or excluding
the claim from the reported results. Finally, NIST’s statement that we were seeking “base sales” is not
accurate. At meetings with NIST representatives during the fieldwork, we explained that NIST’s
original interpretation of our request was not correct, and we reiterated our need for confirmation of
“increased sales,” not “base sales.”

And finally, it should be noted that we modified the final report to reflect that the MEP survey is not
conducted via a mailed paper survey.




                                                   11

U.S. Department of Commerce                                                       Final Report No. FSD-14430
Office of Inspector General                                                                March 2002

II. 	   Performance Results for NIST Laboratories

We found that improvements are needed in NIST’s reporting of “technical publications produced.”
This is one of six performance measures in the Department’s combined APPR/APP to support the
bureau’s performance goal “to provide technical leadership for the Nation’s measurement and
standards infrastructure and ensure the availability of essential reference data and measurement
capabilities.”7 The measure is also included in the Department’s FY 2000 Accountability Report.
Specifically, we found (1) changes in the presentation of the data should be made and (2) internal
controls for the measure need to be strengthened and documented. We have been informed that
corrective action has already been initiated.

A.	     Clarification of terminology used in reporting performance
        information is needed

For the measure “technical publications produced,” reporting could be strengthened to make the
performance data more precise and meaningful. NIST uses the term “publications,” but many of the
“publications” reported under this measure are manuscripts prepared by NIST laboratories staff and
are not necessarily published in journals. The reported number actually represents manuscripts that
have met internal NIST quality standards and are available to be published. Only a percentage of these
manuscripts have actually been included in scientific journals.

NIST should report its performance using a measure or appropriate disclosures that differentiates
between manuscripts approved and those printed in scientific journals. Otherwise, the measure should
be renamed accordingly, for example, “technical articles available for publication.”




        7	
             Measures for the NIST laboratories’ performance goal include quality assessment and
             performance evaluation using peer review, economic impact studies, standard reference
             materials available, standard reference data titles available, number of items calibrated, and
             technical publications produced.

                                                               12
U.S. Department of Commerce                                                    Final Report No. FSD-14430
Office of Inspector General                                                             March 2002

B.	    Management should ensure that controls are in place to
       guarantee collection of all relevant data

The performance measure “technical publications produced” did not include all performance data in
both FY 1999 and FY 2000 because publications from JILA were not included.8 As a result, 103
technical publications in FY 1999 and 115 technical publications in FY 2000 missed inclusion. This
omission occurred because reconciliations had not been performed between data submitted by units
and total results. Reported results for FY 1999 and FY 2000 were 2,030 and 2,115, respectively, when
they should have been 2140 and 2230. Also, for FY 1999, 7 technical publications from Boulder were
excluded from reported results because information was not submitted in time to be included. The
exclusions resulted in differences between actual and reported results of 5.1% for FY 1999 and 5.2%
for FY 2000.

C.	    Efforts are needed to strengthen documentation
       supporting claimed performance results

In our review of supporting documentation for technical publications produced, we found that NIST
lacked documentation to substantiate some of the claimed results. OMB Circular A-123 (Revised),
Section II, Establishing Management Controls, states that the “documentation for transactions,
management controls, and other significant events must be clear and readily available for
examination.”

The bureau reported 2,115 technical publications produced for FY 2000. Our review of the supporting
documentation, which consists of an approval form for each (“full”) technical review of a manuscript,
maintained by the Electronic Information and Publications Program, revealed that for 6 of 35 (17%) of
the items we tested, approval forms were not maintained in the files.9 An additional 3 manuscripts
(5%) of the sample were lacking the signature of the Editorial Review Board Chair on the approval
forms. Without approval forms or final approval signatures, we could not confirm that the
publications had successfully completed the review process that make them eligible for inclusion in
this number.




       8	
            At JILA, NIST employees participate in joint research with the University of Colorado. JILA
            publications reported by NIST, include only those manuscripts in which a NIST employee is identified as
            an author.

       9	
            From our sample of 60 publications, we traced 35 items from the database to supporting
            documentation; for the other 25 items, we ensured there was a entry for approval forms on file.

                                                            13
U.S. Department of Commerce                                        Final Report No. FSD-14430
Office of Inspector General                                                 March 2002

A way to eliminate this problem would be for NIST to reconcile the database for approved manuscripts
with the files maintained by the Electronic Information and Publications Program. Such reconciliation
would ensure that reported results from the database are supported by appropriate documentation. We
were told that subsequent to our review, the office responsible for reporting on this performance
measure has taken corrective action to ensure that documentation is maintained to support reported
results and that the appropriate reconciliations are performed.

D.	    Recommendations

We recommend that the NIST Director:

        (1)	   Make the necessary disclosures and appropriate changes in the presentation of this
               performance measure; and

        (2)	   Ensure that internal controls for the performance measure “technical publications
               produced” be strengthened and documented, including establishing procedures for
               maintenance of supporting documentation and the reconciliation of performance data.

E.	    NIST Response

In his response, the Director of NIST stated that the bureau generally agrees with the recommendations
contained in the draft report and that certain corrective actions have already been taken. In its
comments related to the finding on laboratories, NIST clarifies the documentation procedures for
technical publications, stating that only initial manuscripts undergo a (“full”) technical review. NIST
questioned the value of reconciling the paper files with the electronic database and stated that the
database is the most accurate count of manuscripts for publication. Finally, NIST wanted the report to
clarify that it was the Editorial Review Board Chair’s signature that was missing from the approval
forms.

F.	    OIG Comments

We have modified the report to reflect NIST’s comments. Also, we maintain that reconciliations
between the paper files and electronic database can help ensure the reported results are consistent with
supporting data. However, we recognize that there are other internal controls that NIST can
implement to meet the intent of the recommendation. Also, because the chair person is the final
authorizing official for the release of the publication, we believe this signature is important because it
demonstrates that the concerns of the editorial review board have been addressed.



                                                    14

U.S. Department of Commerce                                               Final Report No. FSD-14430
Office of Inspector General                                                        March 2002

III. 	   Performance Results for the Advanced Technology Program

We found that improvements are needed in NIST’s reporting of “cumulative patents filed” and
“cumulative technologies under commercialization.” Specifically, we found that (1) internal controls
for the measure “cumulative patents filed” need to be strengthened and documented and (2) changes
in presentation and additional disclosures should be made for both measures.

A.	      Management needs to ensure that internal controls
         are strengthened and documented

We found that the “cumulative number of patents filed” for FY 1998 and FY 1999, the most recent
results reported, were slightly overstated in the Department’s FY 2000 Accountability Report and its
combined APPR/APP. Controls should be implemented to prevent such instances from occurring in
the future.

The results were overstated by 9 in both FY 1998 and FY 1999 because copyrights, not just patents,
were incorrectly reported in performance results. Reported results should have been 516 for FY 1998
and 607 for FY 1999. We believe the improper inclusion of copyrights in the total would have been
avoided had desk procedures been in place, including a thorough managerial review, to specify what
should or should not be included in reported results.

To prevent such problems from recurring, NIST should (1) establish documented procedures that
clarify which data should be included in reported results and (2) implement reconciliation procedures
between the database and supporting documentation.

B.	      Action is necessary to strengthen review procedures for reported results

FY 1998 results of “cumulative number of patents filed” were reported incorrectly in NIST’s FY 1999
Financial Statements and the subsequent GPRA documents. Actual results were overstated by 70, or
13.2 percent. Instead of reporting 530, NIST reported 600 because target results were reported as
actual results and the error went undetected during the review process prior to publication.10

Because bureau procedures did not identify this incorrect reporting, it was carried forward for 2 years.
Although we have not identified other instances of this problem, it is imperative that procedures be put



         10
              The number reported in the FY 1999 and FY 2000 Accountability Reports, FY 1999 APPR,     

              and FY2001 APP.


                                                          15
U.S. Department of Commerce                                         Final Report No. FSD-14430
Office of Inspector General                                                  March 2002

in place to ensure that incorrect data are not included in published reports and that errors are not
carried forward.

C.	    NIST needs to strengthen the reporting of performance results

When performance results are reported on an annual basis, NIST should establish a closer link between
results reported and resources used. For the performance measures “cumulative number of patents
filed” and “cumulative number of technologies under commercialization,” NIST provided a multi-year
cumulative result, instead of an annual result to compare with its annual budget. The current
presentation does not provide an effective presentation of the relationship between performance results
and the resources used to achieve them.

Incremental increases for these performance measures can be determined by comparing the prior-year
results with current-year results; however, in the APPR/APP, resources are given on a yearly basis not
a cumulative basis. If cumulative results continue to be reported, then cumulative ATP expenditures,
not just the ATP annual budget, should be reported also.

D.     	Recommendations

We recommend that the NIST Director:

        (1)	   Ensure that internal controls for documenting the cumulative number of patents filed be
               strengthened and documented; and

        (2)	   Make the necessary disclosures for “cumulative patents filed” and “cumulative
               technologies under commercialization” to ensure an improved presentation of the
               relationship between performance results and the resources used to achieve them.

E.	    NIST Response

In his response, the Director of NIST stated that the bureau generally agrees with the recommendations
contained in the draft report and that certain corrective actions have already been taken. NIST’s
response to this finding centered on the appropriate level of precision needed for performance data and
questioned whether additional scrutiny, as recommended by our office, was needed.




                                                    16

U.S. Department of Commerce                                       Final Report No. FSD-14430
Office of Inspector General                                                March 2002

F.     OIG Comments

We commend NIST for actions it has already implemented to respond to the recommendations in the
draft report. We believe it is important to note that any discrepancies in the data, regardless of the
materiality, are good indicators that internal controls should be improved.




                                                  17

U.S. Department of Commerce                                     Final Report No. FSD-14430
Office of Inspector General                                              March 2002

.                                       APPENDIX I


    Performance Goal 1: Provide technical leadership for the nation’s measurement and
    standards infrastructure and ensure the availability of essential reference data and
    measurement capabilities. (NIST Laboratories)



                                                      FY 2000 Annual
                                                      Program
    NIST                     FY 2000                  Performance Report    FY 2001
    Performance              Accountability           & FY 2002 Annual      Annual
    Measure                  Report                   Performance Plan      Performance Plan
    Quality assessment
    and performance
    evaluation using peer                                   �                      �
    review
    Economic impact                                         �                      �
    studies
    Standard reference                                      �                      �
    materials available
    Standard reference                                      �                      �
    data titles available
    Number of items                                         �                      �
    calibrated
    Technical publications
    produced                        �                       �                      �




                                                 18

U.S. Department of Commerce                                 Final Report No. FSD-14430
Office of Inspector General                                          March 2002


 Performance Goal 2: Accelerate technological innovation and development of new
 technologies that underpin future economic growth. (Advanced Technology Program)


                                                FY 2000 Annual
                                                Program
                                                Performance Report
 NIST                     FY 2000               & FY 2002 Annual        FY 2001
 Performance              Accountability        Performance Plan        Annual
 Measure                  Report                                        Performance Plan
 Economic impact                                       �                       �
 studies
 Cumulative number of
 technologies under              �                     �                       �
 commercialization
 Cumulative number of
 technical publications                                �                       �
 Cumulative number of            �                     �                       �
 patents filed



 Performance Goal 3: Improve the technological capability, productivity, and competitiveness
 of small manufacturers. (Manufacturing Extension Partnership)


                                                FY 2000 Annual
                                                Program
                                                Performance Report
 NIST                     FY 2000               & FY 2002 Annual        FY 2001
 Performance              Accountability        Performance Plan        Annual
 Measure                  Report                                        Performance Plan
 Increased sales
 attributed to MEP               �                     �                       �
 assistance


                                              19

U.S. Department of Commerce                                  Final Report No. FSD-14430
Office of Inspector General                                           March 2002


 Capital investment
 attributed to MEP                                      �                        �
 assistance
 Cost savings attributed
 to MEP assistance                                      �

 Performance Goal 4: Assist U.S. businesses and other organizations to continuously improve
 their productivity, efficiency, and customer satisfaction by adopting quality and performance
 improvement practices. (Baldrige National Quality Program)



                                                 FY 2000 Annual
                                                 Program
 NIST                       FY 2000              Performance Report      FY 2001
 Performance                Accountability       & FY 2002 Annual        Annual
 Measure                    Report               Performance Plan        Performance Plan
 Number of
 applications per year to                               �                        �
 MBNQA and
 Baldrige-based State
 and local quality
 awards
 Number of Baldridge
 Criteria mailed by                                     �                        �
 BNQP and by
 Baldrige-based State
 and local quality
 programs




                                              20

U.S. Department of Commerce                                   Final Report No. FSD-14430
Office of Inspector General                                            March 2002


 Performance Goal 5: Protect the national information infrastructure. (Critical Infrastructure
 Protection Grants Program) *



                                                  FY 2000 Annual
                                                  Program
 NIST                    FY 2000                  Performance Report       FY 2001
 Performance             Accountability           & FY 2002 Annual         Annual
 Measure                 Report                   Performance Plan         Performance Plan
 Activity milestones
 related to program                                       �                        �
 establishment


* This performance goal and its supporting performance measure have been discontinued.




                                                21

